0

BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

CERTIFICATE OF COMPLIANCE
No. 19-592
COUNTY COMMISSIONERS OF
CARROLL COUNTY, MARYLAND,

Petitioner,
v.
MARYLAND DEPARTMENT OF THE ENVIRONMENT,

Respondent.
As required by Supreme Court Rule 33. l(h), I
certify that the Amici Curiae The National Association
of Clean Water Agencies, National Municipal
Stormwater Alliance, Association of Missouri
Cleanwater Agencies, Maryland Municipal
Stormwater Association, North Carolina Water
Quality Association, South Carolina Water Quality
Association, Virginia Municipal Storm water Agency,
and West Virginia Municipal Water Quality
Association's Brief Supporting Petitioner's Writ of
Certiorari for the First Question Presented contains
5,286 words, excluding the parts of the Brief that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the
foregoing is true and correct.

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

A.

KERSHNER, J.D.

Executed on November 25, 2019.

D

DonnaJ. W
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

'Ut IE ANNE KERSHNER
lary Publ(c, Slate of Ohio
.ty C0mm,ssion Expires
February 21, 2023

